PROOF OF SERVICE
I do hereby certify that on this date, as required by Supreme Court Rule 29, I
have served the within MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on counsel for
Respondent by depositing an envelope containing the above documents in the
United States mail and with first-class postage prepaid, or by delivery to a thirdparty commercial carrier for delivery within 3 calendar days, properly addressed as
follows:
Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
EXECUTED on this 30th day of August, 2021.

____________________________________
Jonathan D. Byrne
Appellate Counsel
Office of the Federal Public Defender
Southern District of West Virginia
Counsel for Petitioner

